Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

UNITED STATES COURT OF APPEALS

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

October 21, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
JUAN GARCIA,

No. 20-5071
(D.C. Nos. 4:20-CV-00042-GKF-FHM &
4:17-CR-00021 -GKF-1)
(N.D. Okla.)

Defendant - Appellant.
ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before PHILLIPS, MURPHY, and McHUGH, Circuit Judges.
Juan Garcia, a federal prisoner proceeding pro se,1 seeks a certificate of
appealability (COA) to challenge the district court’s order denying his Motion to
Vacate, Set Aside, or Correct Sentence under 28 U.S.C. § 2255. For the following
reasons, we deny Garcia’s request for a COA and dismiss this matter.

* This order is not binding precedent except under the doctrines of law of the case,
res judicata, and collateral estoppel. It may be cited, however, for its persuasive value
consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.
i

Because Garcia appears pro se, we liberally construe his pleadings but will not
act as his advocate. See United States v. Pinson, 584 F.3d 972, 975 (10th Cir. 2009).

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 2

BACKGROUND
I.

Factual Background
While investigating Antonio Martinez—a suspected drug dealer Drug

Enforcement Administration (DEA) officers learned that a vehicle would be
transporting methamphetamine from Oklahoma City to Tulsa on January 26 ,2017.
After locating the vehicle, a Chevrolet Cruze, Oklahoma police observed the car pull
into a Phillips 66 gas station in Oklahoma City. The driver of the Cruze got out of the
car and walked over to a parked pickup truck, opened the passenger-side door, and
then returned to the Cruze. Police followed as both cars left the gas station and
traveled to Tulsa, the truck following the Cruze.
Once the Cruze and the truck arrived in Tulsa, Tulsa police officers stopped
each vehicle separately. A drug dog alerted to the Cruze, and officers searched the
. The
car;; they found a cardboard box containing three pounds of methamphetamine
officers then arrested the driver, Gustavo Flores, and his passenger. Both men said
they had received the drugs from the men in the truck, who were traveling with them
to ensure the drug deal was completed.
The same drug dog alerted to the truck at the front passenger-side door where
defendant Garcia had been sitting. The officers arrested both Garcia and the driver of
the truck, Roberto Dominguez. An officer searched Garcia and found several “wads
of cash” totaling nearly $20,000, a wallet, and a cell phone. App. vol. 1 at 794.
Garcia explained he was en route to Tulsa to buy a car with the cash he had.

2

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 3

Because he didn’t speak or understand English, the officers didn’t interview
Dominguez. Federal authorities initially brought charges against Dominguez but later
dropped them. Dominguez was eventually deported without ever having been
interviewed by law enforcement or Garcia’s attorney.
At trial, Flores testified that “Shorty” (Garcia’s nickname) gave him the three
pounds of methamphetamine found in the Cruze that the Tulsa police ultimately
seized. Id. at 795. Flores told the jury that Garcia had arranged for them to meet at
the Phillips 66 and that, when Flores went to the truck, Garcia pointed to the box
containing the drugs and said, “it was there.” Id. Flores further testified that,
beginning in November 2016, Garcia had on several occasions supplied him with
drugs to distribute. Trial testimony from Martinez and several text message
exchanges supported Flores’s testimony.
Garcia testified that he was not involved in drug trafficking. He explained he
had gone to Tulsa to buy a Dodge Viper from a man named Bryan Smith. Although
the court admitted text messages between Garcia and Smith about the possible sale of
the car, Smith didn’t testify at the trial.
II.

Procedural History
In August 2017, a jury convicted Garcia of participating in a

methamphetamine-distribution conspiracy. The district court sentenced him to 170
months’ imprisonment. Garcia appealed both his conviction and sentence, but this
court affirmed on both grounds.

3

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 4

He then filed the present § 2255 Motion, arguing that he was denied his Sixth
Amendment right to effective assistance of counsel. Because the district court
concluded that Garcia had failed to establish that any allegedly deficient performance
by his counsel prejudiced his defense, it denied the Motion and denied a COA . Garcia
now seeks a COA to challenge the denial of his § 2255 Motion.
DISCUSSION
Under 28 U.S.C. § 2253(c)(1)(A), Garcia may appeal the district court’s
decision only if we issue a COA. To be entitled to a COA, he must make “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).
, “the
When, as here, the district court rejected the constitutional claims on the merits

showing required . . . is straightforward: The petitioner must demonstrate that
reasonable jurists would find the district court s assessment of the constitutional
claims debatable or wrong.” Miller-El v. Cockrell, 537 U.S. 322, 338 (2003) (quoting
Slack v. McDaniel, 529 U.S. 473, 484 (2000)). We conclude the district court
correctly decided Garcia’s Motion.
Garcia argues that he was denied his Sixth Amendment right to effective
assistance of counsel. Specifically, Garcia maintains that his attorney’s failure to
subpoena and interview Roberto Dominguez and Bryan Smith prejudiced his defense.
Because those two witnesses allegedly would have corroborated Garcia’s claim that
he was travelling to Tulsa to buy a Dodge Viper, Garcia asserts that their combined

4

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 5

testimony would have raised serious doubts in the jurors’ minds about his guilt. We
disagree.
The Sixth Amendment guarantees a criminal defendant “the right... to have
Assistance of Counsel for his defense.” U.S. Const, amend. VI. To prevail on a claim
for ineffective-assistance-of-counsel, Garcia must satisfy a two-prong test. See
Strickland v. Washington, 466 U.S. 668, 687 (1984). “First, the defendant must show
that counsel’s performance was deficient. This requires showing that counsel made
errors so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment.” Id. “Second, the defendant must show that the
deficient performance prejudiced the defense.” Id. He may do this by showing that,
“but for counsel’s deficient performance, there is a reasonable probability the result
of the proceeding would have been different.” Smith v. Duckworth, 824 F.3d 1233,
1249 (10th Cir. 2016) (citing Strickland, 466 U.S. at 694). Garcia must satisfy both
prongs to succeed on his claim, and we may begin with either prong. Hooks v.
Workman, 689 F.3d 1148, 1186 (10th Cir. 2012). We first consider the “prejudice”
prong.

2 Garcia also faults his attorney for not adequately “attacking the credibility of
Martinez’s and Flores’ testimony.” Opening Br. 3. For example, Garcia argues effective
counsel would have highlighted that Martinez and Flores are cousins, they were part of
the “Martinez Organization,” and that Martinez was the DEA’s main target. Id. But
Garcia raises this argument for the first time on appeal. Finding no reason to deviate
from the general rule that we do not address arguments presented for the first time on
appeal,” United States v. Mora, 293 F.3d 1213,1216 (10th Cir. 2002) (citation omitted),
we decline to consider these arguments.
5

/

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 6

Garcia’s argument is simple: the result of the proceeding would have been
different if his attorney had secured Dominguez’s and Smith’s testimony at trial.
They allegedly would have testified that Garcia was traveling to Tulsa to buy a
Dodge Viper, corroborating Garcia’s version of events. But even accepting that
Dominguez and Smith would have testified accordingly,3 Garcia’s argument fails for
at least two reasons. First, the court allowed Garcia to introduce text messages he
exchanged with Smith that supported Garcia’s explanation for his trip to Tulsa. So
additional testimony supporting his claim would likely have had little impact on the
jury. Second, even if the jury believed that part of Garcia’s reason for going to Tulsa
was to buy the Dodge Viper, it could easily have concluded that the car purchase was
in addition to Garcia’s drug-trafficking plans. Indeed, that’s exactly what the
government argued to the jury.
Moreover, in considering Garcia’s prior appeal, this court determined that “the
evidence that Garcia distributed methamphetamine was overwhelming.” United
States v. Garcia, 761 F. App’x 815, 819 (10th Cir. 2019). We cited, among other
things, Flores’s and Martinez’s testimony that Garcia regularly supplied them with
methamphetamine to distribute, including the day Garcia was arrested; text messages
between Flores and Garcia discussing drug-distribution logistics, one of which
contained a picture of drugs; the drug dog’s alert to the area of the truck where

3 Garcia included with his § 2255 Motion an affidavit from Dominguez,
“verify[ing] that [he] was taking [Garcia] to purchase a vehicle (Dodge Viper) on January
26, 2017 in Tulsa, Oklahoma.” App. vol. 1 at 705.
6

/

Appellate Case: 20-5071

Document: 010110426571

Date Filed: 10/21/2020

Page: 7

Garcia had been sitting; video surveillance corroborating the witnesses’ testimony;
and other evidence on Garcia’s phone. See id.
In sum, additional testimony that Garcia was going to Tulsa to buy a car would
have had little impact on jurors. And the incriminating evidence was extensive. We
therefore hold that Garcia has failed to show that “but for counsel’s deficient
performance, there is a reasonable probability that the result of the proceeding would
have been different.” Duckworth, 824 F.3d at 1249 (citing Strickland, 466 U.S. at
694). Because Garcia cannot show his attorney’s performance prejudiced his defense,
we decline to consider whether his counsel performed deficiently.
CONCLUSION
For the foregoing reasons, we conclude reasonable jurists wouldn’t find the
district court’s assessment of the constitutional claims debatable or wrong.
Accordingly, we DENY Garcia’s request for a CO A and DISMISS this matter.
Entered for the Court
Gregory A. Phillips
Circuit Judge

7

uase 4:i/-cr-0002l-GKF

Document 235 Filed in USDC ND/OK on 07/24/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF OKLAHOMA
UNITED STATES OF AMERICA,
Plaintiff,
v.

)
)
)
)

)

JUAN GARCIA, a/k/a “Shorty,”
ANTONIO SIERRA-MARTINEZ,
JOEL ULLOA-MUNOZ,
Defendants.

Case No. 17-CR-021-GKF

)
)
)
)
)
)

ORDER
Defendant has filed a Petition for a Certificate of Appealability [Doc. 234] in connection
with the Court’s recent Order denying his Motion under 28 U.S.C. § 2255 to Vacate, Set Aside, or
Correct Sentence. But, in that same Order, the Court denied a certificate of appealability because
defendant had not “made a substantial showing of the denial of a constitutional right.” [Doc. 229,
p. 7]. The Court therefore treats Defendant’s Petition for a Certificate of Appealability [Doc. 234]
as a motion to reconsider, and the motion is denied.
IT IS SO ORDERED this 24th day of July, 2020.

LL
UNITED STATES DISTRICT JUDGE

Case 4:17-cr-00021-GKF

Document 230 Filed in USDC ND/OK on 06/29/2020

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
UNITED STATES OF AMERICA,
Plaintiff,
v.

Case Nos. 17-CR-21-GKF-1
20-CV-42-GKF-FHM

JUAN GARCIA,
Defendant.

JUDGMENT
Pursuant to the order entered this date, judgment is hereby entered in favor of plaintiff
United States of America and against defendant Juan Garcia as to Mr. Garcia’s motion filed
pursuant to 28 U.S.C. § 2255.
ENTERED this 29th day of June, 2020.

ELL
UNITED STATES DISTRICT JUDGE

, Case 4:17-cr-00021 -GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF OKLAHOMA
UNITED STATES OF AMERICA,
Plaintiff,
v.

JUAN GARCIA,

Case Nos. 17-CR-21-GKF-1
20-CV-42-GKF-FHM

Defendant.

ORDER
Before the court is the Motion under 28 U.S.C. § 2255 to Vacate, Set Aside, or Correct
Sentence [Doc. 215] and the Motion to take Deposition of Witness in a Foreign Country [Doc.
225] of defendant Juan Garcia. For the reasons set forth below, both motions are denied.
I. Procedural History
On August 23,2017, a jury found Juan Garcia guilty of participating in a methamphetamine
distribution conspiracy in violation of 21 U.S.C. §§ 846 and 841 (b)(1 )(A)(vlii). [Doc. 138; see
also Doc. 93]. This court subsequently entered judgment and sentenced Garcia to a term of 170
months imprisonment. [Doc. 176, pp. 1-2], Garcia appealed, challenging this court’s denial of his
motion to dismiss the indictment for the alleged bad faith deportation of Roberto Dominguez prior
to trial and his within-guidelines sentence. [See Doc. 203, p. 1], The Tenth Circuit affirmed on
both grounds. [See id., p. 14], Garcia then sought review by the Supreme Court. [Doc.207]. The
Supreme Court denied Garcia’s petition for writ of certiorari. [Doc. 208].
II. Factual Background
The following facts are taken from trial testimony. DEA officers investigating Antonio
Martinez, a suspected drug dealer, learned that a vehicle carrying methamphetamine would be
traveling from Oklahoma City to Tulsa on January 26, 2017. [Doc. 163, pp. 7-9], Oklahoma State

Case 4:17-cr-Q0021 -GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 2 of 7 t

Trooper Cole Patterson testified that he provided aerial assistance to the investigation via
helicopter that day. [Doc. 161, p. 19]. Patterson observed the vehicle—a green Chevrolet Cruze—
pull into a Phillips 66 gas station in Oklahoma City. [Id., pp. 24-25]. “The driver of the Cruze got
out of the Cruze and walked over to [a] dark-colored pickup, opened the passenger-side door, and
went back and returned to the Cruze.” [Id.]. The Cruze then exited the parking lot followed by
the dark-colored pick-up. [Id., pp. 25-26]. Patterson observed the Cruze and the truck travel from
the gas station to Tulsa, Oklahoma in tandem. [Id., p. 26].
Once the vehicles reached Tulsa, Tulsa Police Department (TPD) officers conducted
separate traffic stops of the Cruze and truck. [Id., pp. 33, 36]. Corporal Michael Griffin testified
that he and his drug dog assisted first with the stop of the Cruze, then with the stop of the truck.
[Id.]. The drug dog alerted to the Cruze, and the subsequent search revealed a cardboard box
containing three pounds of methamphetamine. [Id., pp. 34, 62]. TPD officers arrested the driver
of the Cruze—Gustavo Flores—and the passenger—Joel Ulloa. [Id., pp. 61 -62]. Both men made
_____i
a! _ - a- —
SldlCillClllS iUUXtdUUg U1C y

+Vio

ofVi n-rvir>V» aform -n <=* frnrn ttap tTHPlf Ann

JLICU4 it/VUVW UlC JiAAWtAACiAAApAA^»,A*A.i.juLAA>-'

aavaaa

.a

— -----

tnP, tnif.K
——

was traveling with them to ensure that the drug deal was completed. [Doc. 162, pp. 43-44; see
also id, p. 104].
Corporal Griffin then went to the traffic stop of the truck and deployed the same drug dog.
[Doc. 161, p. 36]. The drug dog alerted to the presence of drug odor on the front passenger side
door, where defendant Garcia had been sitting. [Id., pp. 37, 93]. TPD Officers arrested Garcia and
the driver of the truck, Roberto Dominguez. [Id, p. 64]. Officer Keith Osterdyk testified that a
search of Mr. Garcia revealed several “wads of cash” totaling nearly $20,000, a wallet, and a cell
phone on Mr. Garcia’s person. [Id. pp. 43, 75]. Garcia told officers he was riding to Tulsa with
Dominguez to purchase a vehicle with the cash he was carrying. [Id, p. 91; Doc. 162, p. 188].

2

• Case 4:17-cr-00021 -GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 3 of 7

Officers did not interview Mr. Dominguez because he did not speak or understand English. [Doc.
162, p. 187], Charges were ultimately dropped against Mr. Dominguez and he was deported
without ever being interviewed by law enforcement. [See Doc. 162, pp. 186-87; see also Doc.
110, pp. 21,34],
At trial, Flores testified that he received the three pounds of methamphetamine from
Shorty

a nickname for defendant Garcia. [Doc. 162, pp. 44-45]. Flores explained that Garcia

instructed him to go to the Phillips 66 where Garcia would be waiting in a blue truck. [Id., p. 47],
Once at the gas station, Flores approached the truck where he saw Garcia and a man he had never
seen before in the driver’s seat. [Id., p. 48],

Garcia pointed to the box containing

methamphetamine and said “it was there.” [Id., p. 49]. Flores then grabbed the box, returned to
the Cruze, and proceeded to Tulsa to deliver the drugs. [Id.]. Flores communicated with the
defendant throughout the drive via calls and text messages. [Id., p. 51]. Flores explained that the
methamphetamine was fronted, meaning Flores and Ulloa would not pay Garcia for the
methamphetamine until they successfully delivered it. [Id., p. 50]. Flores expected to receive
$16,000 for the drugs that day, $3000 of which he would keep with the remainder going to
defendant Garcia. [Id., pp. 50-51], He further testified Garcia supplied him with the drugs he
distributed on several occasions beginning in November 2016. [Id., p. 60], This testimony was
supported by several text message conversations and the testimony of Anthony Martinez, who
facilitated the drug deals. [See id., pp. 61-86, 121-22],
Mr. Garcia also testified, confirming that he was known as “Shorty” but denying any
involvement in drug trafficking. [Doc. 163, pp. 38, 61-62], Consistent with his statements at the
time of his arrest, Garcia testified that he rode to Tulsa with Dominguez to purchase a Dodge Viper
from Bryan Smith with cash he had saved. [Id., pp. 42, 48]. Benjamina Ramirez testified that she

3

Case 4:17-cr-00021-GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 4 of 7

and Garcia applied for—and were denied on January 26, 2017— a loan to purchase a Dodge Viper
owned by Smith. [Id., pp. 27-29]. The court also admitted text messages between Garcia and Mr.
Smith regarding the sale of the Dodge Viper. [Id., p. 82], However, Mr. Smith did not testify.
III. Motion to Conduct Deposition
As an initial matter, Garcia submits a notarized and translated affidavit of Mr. Dominguez
in support of his § 2255 motion. [See Doc. 215, pp. 14-22], Dominguez states that he is “writing
this statement on behalf of Juan Garcia to verify that [he] was taking him to purchase a vehicle
(Dodge Viper) on January 26, 2017 in Tulsa, Oklahoma.” [Doc. 215, p. 14]. He “would also like
to admit that all property (phones, etc.) that was in [his] truck during [the] arrest January 26, 2017
belonged to [him], Roberto Dominguez.” [Id.]. Important, though, is what Mr. Dominguez does
not say: that Garcia was not involved in drug trafficking. Garcia requests leave to depose Mr.
Dominguez in Mexico pursuant to Federal Rule of Criminal Procedure 15 to further develop these
facts. [Doc.225].
"A naoeas petitioner ... is nut cmmcu iu uiaa «. mauw v/i wiumtu.j

-----

V. Gramley, 520 U.S. 899, 904 (1997). Rule 6(a) of the Rules Governing Section 2255 Proceedings
states that “[a] judge may, for good cause, authorize a party to conduct discovery under the Federal
Rules of Criminal Procedure or Civil Procedure, or in accordance with the practices and principles
of law.” “Good cause is established where specific allegations before the court show reason to
believe that the petitioner may, if the facts are fully developed, be able to demonstrate that he is ..
. entitled to relief.” Wallace v. Ward, 191 F.3d 1235, 1245 (10th Cir. 1999) (internal quotation
marks and citation omitted).
To demonstrate he is entitled to relief, Garcia must show a “reasonable probability” that
Dominguez’s testimony would have changed the outcome of his trial. See Strickland v.

4

, Case 4:17-cr-00021 -GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 5 of 7

Washington, 466 U.S. 668, 694 (1984). The Tenth Circuit has already noted that, in the face of the
compelling evidence against Garcia, “it is highly unlikely that the jury would have rendered a
different verdict, even if Dominguez had supported Garcia’s claim that he knew nothing about the
drugs and was traveling to Tulsa to purchase a car.” United States v. Garcia, 761 F. App’x 815,
819 (10th Cir. 2019). The overwhelming evidence against Garcia compels the same conclusion
here: further development of Mr. Dominguez’s testimony would not show “probability sufficient
to undermine confidence in the outcome.” Strickland, 466 U.S. at 694. Accordingly, Garcia’s
discovery motion is denied.
IV. Motion Under § 2255
In his § 2255 motion, Garcia argues his counsel performed deficiently by failing to
subpoena and interview (1) Roberto Dominguez prior to his deportation and (2) Bryan Smith.
Garcia believes he was prejudiced by this failure because both Mr. Dominguez and Mr. Smith
would have corroborated his defense, namely that he was traveling to Tulsa to purchase a car.
The Sixth Amendment guarantees a criminal defendant “the right... to have Assistance of
Counsel for his defense.” U.S. Const, amend. VI. Under Strickland v. Washington, 466 U.S. 668
(1984), defendants must satisfy a two-prong test to prevail on ineffective-assistance-of-counsel
claims. “First, the defendant must show that counsel’s performance was deficient. This requires
showing that counsel made errors so serious that counsel was not functioning as the ‘counsel’
guaranteed the defendant by the Sixth Amendment.” Id. at 687. “Second, the defendant must
show that the deficient performance prejudiced the defense.” Id. He may do this by showing “that,
but for counsel’s deficient performance, there is a reasonable probability the result of the
proceeding would have been different.” Smith v. Duckworth, 824 F.3d 1233,1249 (10th Cir. 2016)
(citing Strickland, 466 U.S. at 694).

5

Case 4:17-cr-00021-GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 6 of 7

The court may address performance or prejudice in any order, and failure to meet either
prong of the Strickland test is lethal to defendant’s claim. Hooks v. Workman, 689 F.3d 1148,1186
(10th Cir. 2012). Here, the government argues Garcia’s failure to satisfy the second prong is
dispositive and, as a result, the court need not address the first. The court agrees.
At trial, Garcia’s defense was consistent with his prior statements to law enforcement,
supported by the testimony of Benjamina Ramirez, and corroborated with text messages between
Garcia and Smith regarding the potential sale of the Dodge Viper. Both Dominguez’s and Smith’s
testimony may have further corroborated Garcia’s account; however, it would have done little to
undercut the government’s strong case against Garcia. Indeed, the government did not dispute that
Garcia intended to purchase the Dodge Viper in Tulsa. [See Trial Transcript, Doc. 161, p. 14
(Garcia told law enforcement “that the only reason why he’s in Tulsa is to buy a car,” however,
“the evidence will show that that was not the only reason why he was in Tulsa.”)].
Instead, the government argued persuasively to the jury that Garcia participated in a drug
_
1________ ____ 4.—4-V* <-»+■ rioTAi n oldA nl.o.tmpH. rvn f'n.ty* JtCCCI T1 CT Ci P9T
COliSpnaCy UULWlU.10taiiU.lllg t/VlUWlt/t/ UlUl XJCUVIU Uiov |;iuumvw V14
-v -—

T^nth HlOT*P.S
—--------------• —

and Martinez testified in detail that Garcia supplied the three pounds of methamphetamine
recovered from the Craze on January 26,2017, and that he had supplied smaller quantities to Flores
on several occasions beginning in November 2016. Their testimony was supported by text
message evidence with and regarding “Shorty,” a nickname the defendant admitted to using. While
Dominguez’s claim to some of the phones at issue may have cast some doubt as to whether the
text messages were exchanged with Garcia or Dominguez, it would not undercut the discussion of
“Shorty” in the test messages themselves. Moreover, Flores’s testimony was further corroborated
by the officers’ testimony, video footage, and the drag dog’s alert to the area of the track where
Garcia had been sitting.

6

.

Case 4:17-cr-00021-GKF

Document 229 Filed in USDC ND/OK on 06/29/2020

Page 7 of 7

In light of this overwhelming evidence of guilt the court concludes—much like the Tenth
Circuit’s decision on appeal applying a similar standard—Garcia fails to “show that there is a
reasonable probability that ... the results of the proceeding would have been different” if
Dominguez and Smith would have been interviewed and testified.1 See Strickland, 466 U.S. at
694. Accordingly, his § 2255 motion is denied.
V. Conclusion
WHEREFORE, defendant Juan Garcia’s Motion under 28 U.S.C. § 2255 to Vacate, Set
Aside, or Correct Sentence [Doc. 215] and his Motion to take Deposition of Witness in a Foreign
Country [Doc. 225] are both denied.
Further, the court denies a certificate of appealability because Mr. Garcia has not “made a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see also Rule
11 (a), Rules Governing Section 2255 Proceedings.
IT IS SO ORDERED this 29th day of June, 2020.

Gl
ELL
UNITED STATES DISTRICT JUDGE

Because Garcia’s § 2255 motion and the files and records of this case conclusively compel this
result, Mr. Garcia is not entitled to an evidentiary hearing. See United States v. Kennedy 225
F.3d 1187, 1193 (10th Cir. 2000) (“Under 28 U.S.C. § 2255, the district court is required to
conduct an evidentiary hearing ‘[u]nless the motion and files and records of the case conclusively
show that the prisoner is entitled to no relief.’”).
7

